AUDIT OF THE FEDERAL AVIATION
      ADMINISTRATION’S
           RESULTS
NATIONAL CONTRACTING SERVICE
     Federal Aviation Administration

      Report Number: FI–2006–072
     Date Issued: September 21, 2006
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of the Federal Aviation                                            Date:    September 21, 2006
           Administration’s RESULTS National Contracting
           Service
           Report No. FI-2006-072
  From:    Rebecca C. Leng                                                               Reply to
                                                                                         Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits
    To:    Federal Aviation Administrator

           This report provides the findings of our audit of the RESULTS National
           Contracting Service procurement program, a contracting vehicle the Federal
           Aviation Administration (FAA) established to acquire support services. 1 We
           conducted this audit in response to requests from Congress.

           In May 2005, the Chairman of the Senate Finance Committee sent a letter to the
           Office of Inspector General raising serious concerns about allegations of potential
           waste, fraud, and conflict of interest in a $16-million contract between FAA’s
           Military Operations Program (MILOPS) and Crown Consulting, Inc. The
           Chairman requested that we perform a detailed review of this contract, which was
           awarded through the RESULTS procurement program. Based on our preliminary
           results, Congress became concerned that other support services contracts could
           also be subject to similar problems.

           In July 2005, the Chairman of the Senate Finance Committee and the Chairman of
           the Senate Governmental Affairs Committee’s Subcommittee on Federal Financial
           Management, Government Information, and International Security requested that
           we perform a broader review of support services contracts awarded by FAA.
           Accordingly, we expanded our review to the entire RESULTS procurement


           1
               Support services are defined as contractual services that support or improve organizational policy development,
               decision-making, management and administration, program and/or project management and administration, or
               research and development activities. It can also mean furnishing professional advice or assistance to improve the
               effectiveness of Federal management processes or procedures, including those of an engineering and technical
               nature.
                                                                                  2

program, under which FAA awarded contracts with a total potential value of
$543 million for support services.

In the Department of Transportation’s fiscal year (FY) 1996 Appropriations Act,
Congress provided FAA with broad authority to develop its own acquisition
process without having to comply with Federal acquisition laws or regulations.
The intent was to allow FAA to streamline its acquisition processes so that it could
acquire goods, services, and systems in a more timely and cost-effective manner.
To implement the reforms, FAA established its Acquisition Management System
(AMS), a set of policies and guidance designed to address the unique needs of the
Agency and to streamline all three acquisition life-cycle phases (see Figure 1).
AMS allows procurement flexibility, but, to ensure that this flexibility is properly
applied, it requires sound judgment on the part of FAA procurement officials.
Accordingly, appropriate oversight by FAA executives is critical.

                        Figure 1. Acquisition Life Cycle

                                                           Manage &
                  Plan
                                              Procure      Administer
              (Pre-Award)
                                                          (Post-Award)

       Source: Information Technology Resources Board

Under AMS, FAA uses a variety of contracting vehicles to acquire goods,
systems, and support services. In FY 2005, FAA obligated about $1 billion for
support services using numerous contracts with individual companies and three
multiple-award procurement programs—one of which was RESULTS. In total,
FAA has awarded about $2.2 billion in potential contract value and obligated a
total of $563 million under these three procurement programs since
December 2000 (see Table 1 on the next page).
                                                                                                            3


     Table 1. Use of Multiple-Award Procurement Programs To
           Acquire Support Services (dollars in millions)

                                        RESULTS            BITS II*            MASS*               Total

Total amount awarded                        $543             $1,250               $438            $2,231
(potential contract value)
Total amount obligated                      $217                $190              $156               $563

  Source: FAA Procurement Offices. FAA procurement officials provided contract award data for BITS II and MASS
  as of November 2005 and updated the award data for RESULTS as of February 2006.
* Broad Information Technology and Telecommunications Support Services II (BITS II) is managed at FAA
  Headquarters in Washington, DC, and Multiple Award Support Services (MASS) is managed at the William J.
  Hughes Technical Center, Atlantic City, New Jersey.

The RESULTS procurement program was created in 2002 at FAA’s Mike
Monroney Aeronautical Center in Oklahoma City, Oklahoma. It was designed to
provide FAA and other Government agencies with rapid, cost-effective, high-
quality support services for a fee. Like its two companion umbrella contracting
vehicles, RESULTS provided FAA with a range of support services using 142 pre-
qualified vendors. Under RESULTS, 114 contracts were awarded with a total
potential contract value of about $543 million.

Our specific objectives were to determine (1) whether the RESULTS procurement
program was structured to meet FAA’s needs and (2) whether contracts awarded
through RESULTS were properly managed. We conducted this performance audit
from May 2005 through September 2006 in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States and performed tests we considered necessary to detect fraud.
Details of our scope and methodology are presented in Exhibit A.

By August 2005, we had identified a range of contracting deficiencies associated
with both the MILOPS contract and the RESULTS procurement program and
made a series of recommendations to address them quickly at the Agency level.
To her credit, the FAA Administrator took immediate action to strengthen
oversight. In a memorandum dated August 11, 2005, the Administrator directed
FAA managers to enhance controls over procurement activities by strengthening
enforcement of competition, increasing financial oversight of major acquisition
projects, and completing specified training for contracting and program officials.
This report also addresses the status of FAA’s implementation of those actions.
                                                                                 4


RESULTS IN BRIEF
The RESULTS procurement program was not properly structured to meet FAA’s
needs for faster, cheaper, and better support services. FAA officials did not award
contracts with sufficient competition or adequate price analysis, and deficiencies
also existed in the administration of individual contracts.

When we informed FAA officials of our preliminary results, they enhanced
controls over procurement activities by requiring the Deputy Administrator’s
approval for sole-source contract awards of $1 million or more, establishing a
financial oversight function in the Chief Financial Officer’s (CFO) office,
strengthening contracting officers’ review of payment requests, and conducting
Agencywide training on procurement and ethics. FAA deserves credit for taking
these swift corrective actions. Nevertheless, given the weaknesses in the
RESULTS program structure, we see the need to make additional
recommendations. In particular, we are recommending that FAA dissolve
RESULTS. FAA has agreed and is taking actions to dissolve this multiple-award
program.

 • RESULTS Was Not Properly Structured To Meet FAA’s Needs. When
   FAA established RESULTS, it did not negotiate standard labor rates, and it
   did not specify labor categories or qualifications requirements for any of the
   142 contractors who were eligible to receive contracts. As a result, FAA had
   to negotiate labor rates and qualifications individually for each contract.

     The need to negotiate each contract individually negated most of the intended
     benefits of multiple-award vehicles by prolonging the contract award
     process, incurring higher costs, and providing only limited assurance that
     FAA received high-quality services. During FY 2005, it took an average of 5
     months to award a support services contract, which was about twice as long
     as advertised by RESULTS. In addition, because of the absence of labor
     qualifications requirements, FAA not only had no assurance that it was
     obtaining the quality of services anticipated but also paid higher labor rates
     than those for which contractor staff were qualified.

     The absence of labor qualifications requirements becomes particularly
     troublesome when combined with the “revolving door” hiring practice—
     FAA officials going to work for contractors shortly after leaving the Agency.
     One particular contractor paid finder’s fees for recruiting FAA employees.
     About 21 percent of this contractor’s staff were former employees of FAA.
     While this practice does not violate any Government regulations, it creates
     significant risks to FAA’s ability to maintain arm’s-length relationships with
     its contractors when negotiating contract terms or overseeing contractor
     performance. In October 2005, FAA modified AMS to require that
                                                                                                          5

        companies bidding on FAA contracts identify their employees who used to
        work for FAA or who have relatives working for FAA. However, FAA has
        not determined how this new information should be used when evaluating
        contractor proposals.

        Our comparison of RESULTS labor costs with those in other FAA
        procurement programs indicates that FAA would incur $24 million to
        $44 million in higher costs if all option years in existing RESULTS contracts
        were exercised. 2 This does not include the cost impact of other contracting
        deficiencies, such as lack of competition, which we address below.

    • Contracts Were Awarded Without Sufficient Competition or Adequate
      Price Analysis. The use of competition is the most effective way to ensure
      that the Government receives a fair price, but under RESULTS, only
      24 percent of the 114 contracts benefited from competition.

        In fact, half of the contracts were awarded without any competition. When
        we reviewed the required sole-source justifications, we found that most sole-
        source awards were made based only on management’s preference for
        working with a known individual contractor, an unacceptable reason under
        AMS. In another 26 percent of the awards, the contract was open to
        competition, but only one contractor submitted a bid.

        These decisions not to compete contracts under RESULTS had other
        consequences beyond denying the Agency fair and reasonable prices.
        Without competition to acquire best-priced services, the Government had to
        rely on other price analysis techniques to determine if proposed prices were
        fair and reasonable. However, based on our review of 11 sample contracts,
        the quality of the price analyses performed by FAA officials was not
        adequate to ensure reasonable prices in 9 of the 11. In one case, a proper
        price analysis would have shown that the contractor was charging $51 more
        per hour than it charged for the same services under another FAA
        procurement vehicle. These deficiencies compromised the Government’s
        ability to negotiate a fair price. They also led to higher costs, although the
        amount cannot be quantified.

    • Deficiencies Also Existed in the Administration of Individual Contracts.
      These included cases in which deliverables were not clearly defined and
      performance problems were not addressed. For example, acceptance criteria,
      which need to be specified so the Government can determine whether a
      contractor is performing satisfactorily, were absent in 10 of the 11 contracts

2
    We reviewed 11 judgmentally sampled contracts that make up about $242 million of the $543 million (about
    45 percent) awarded under RESULTS.
                                                                                                                   6

        we sampled. The lack of acceptance criteria makes it difficult to evaluate the
        quality of services provided and to take action if performance problems arise.

        Further, payments for support services were sometimes made without proper
        review and approval by a contracting officer, and there were multiple
        instances of payments exceeding the contract ceiling amount. FAA officials
        also used inappropriate contract types that provided no incentive for vendor
        performance and allowed work to be performed beyond the contract scope
        without written authorization. Finally, except for one instance, FAA did not
        request any contract audits to identify excessive or unallowable charges, even
        though it had previously agreed to obtain such audits. 3

        These deficiencies resulted not only in higher procurement costs but also in
        quality problems with services delivered. According to FAA officials, this
        occurred in an environment where the contracting officers were required to
        oversee a large number of contracts, resulting in inadequate oversight.
        Within 2 months of when contracting officers began reviewing payment
        requests in response to the Administrator’s August 2005 direction, nearly
        $1 million in questionable expenditures were identified.

    • FAA Enhanced Controls Over Procurement, but Follow-Through Is
      Needed. The Administrator’s August 11, 2005 memorandum directed
      Agency personnel to enhance FAA-wide procurement of support services on
      two fronts. First, it called for two initiatives at the executive level: Deputy
      Administrator review and approval of sole-source contract awards of
      $1 million and above and the establishment of a financial oversight function
      in the CFO office to review and approve acquisitions valued at $10 million
      and above. Second, the memorandum directed Agency acquisition personnel
      to adhere to AMS for procurement of support services. The memorandum
      addressed numerous AMS requirements, including ensuring that statements
      of work and independent cost estimates are prepared by the Government, not
      contractors; comparing rates and capabilities from multiple sources when
      acquiring services; ensuring that detailed and supported invoices are
      reviewed and approved by contracting officers; and ensuring that labor
      categories are accurate and reflect the work being done.

        FAA has made good progress in implementing these executive-level
        initiatives: sole-source contracts $1 million and above are now awarded only
        after Deputy Administrator review and approval, and the CFO is reviewing
        and approving the awarding of contracts valued at $10 million and above.
3
    As a corrective action to resolve a material weakness regarding not properly administering closeout and payment of
    cost-reimbursable contracts, FAA issued a policy requiring audits of all cost-reimbursable contracts valued at
    $100 million and above and 15 percent of those contracts valued at less than $100 million, including time-and-
    materials and labor-hour contracts.
                                                                                                                    7

        However, the CFO’s reviews can be strengthened. For example, although the
        CFO’s reviews look for evidence of independent Government cost estimates,
        these reviews do not check whether price analyses were sufficient to ensure
        the reasonableness of contractor-proposed pricing. According to the
        Administrator’s August 11th memorandum, “…an independent cadre of
        personnel with significant acquisition and financial controls experience” is
        assisting the CFO in doing the review. FAA needs to make this review more
        substantive rather than performing only a checklist-based compliance review.

        Regarding the Administrator’s direction to adhere to AMS requirements,
        progress has been made in some areas, most notably in contracting officers’
        reviews of payment requests. However, FAA has not implemented an
        Agencywide oversight process to ensure that procurement officials are
        following AMS requirements consistently.           Establishing Agencywide
        oversight, preferably under the Office of the Acquisition Executive, is critical
        because FAA has delegated contract/procurement authority to various
        Headquarters, regional, and field offices.        During the audit, some
        procurement offices have taken initiatives to strengthen their oversight. 4
        While this is a step in the right direction, it is not a substitute for an
        Agencywide program. FAA’s August 2005 internal review of multiple-
        award programs also recommended development of an oversight program.
        FAA has not yet implemented this important recommendation.

Overall, RESULTS suffered from an inappropriate program design that prevented
it from meeting FAA’s goal of faster, better, and cheaper acquisition of support
services. This happened because Aeronautical Center procurement officials
underestimated the length of time required to establish and obtain full approval for
a comprehensive multiple-award program. As a result, FAA paid higher costs
than reasonable for support services and could not be sure of the quality of
services provided. FAA deserves credit for quickly taking several corrective
actions for its procurements Agencywide. However, the inherent problems with
the program’s structure and management require that RESULTS be dissolved. We
are also recommending that the CFO Office conduct more substantive reviews of
contracts valued at $10 million and above and that the Acquisition Executive’s
office conduct Agencywide oversight to ensure that all procurement officials are
following AMS requirements consistently when acquiring services.

FAA officials informed us that they have taken steps toward dissolving the
RESULTS procurement program. First, they stopped awarding new contracts,
discontinued the RESULTS program website, and terminated 12 contracts this
year. Second, FAA will recompete all remaining RESULTS contracts, with the

4
    In recent months, the Office of the Assistant Administrator for Regions and Center Operations has started to review
    regional offices’ compliance with AMS.
                                                                                 8

exception of five, at the end of their current performance (option) periods. FAA
has decided to allow program officials to exercise all options under those five
contracts because they either have unique requirements or were properly
competed.

FAA’s actions to dissolve the RESULTS program are reasonable. However, we
are concerned that FAA plans to replace discontinued RESULTS support services
with stand-alone contracts to be managed by either Headquarters or Aeronautical
Center contracting officers. This is not an efficient use of resources because each
replacement contract will still have to be individually negotiated. Instead, FAA
should consider using other existing multiple-award programs, such as the General
Services Administration’s (GSA) Governmentwide Awards Contracts (GWACs)
to acquire replacement services. These procurement programs already have built-
in controls, such as centrally defined labor categories and qualifications and pre-
competed labor rates, which not only streamline the contract award process but
also help ensure reasonable prices.

On August 7, 2006, we issued FAA a draft of our report. In addition to dissolving
the RESULTS procurement program, we recommended that the Acquisition
Executive seek approval from the Joint Resources Committee for any new FAA-
specific, multiple-award procurement programs; develop guidance describing how
the information concerning former FAA employees working for contractors
should be used when evaluating contract proposals; and establish oversight
processes to evaluate all FAA procurement offices. Also, we recommended that
the CFO implement procedures to assess the quality of financial work performed
by procurement and contracting staff.

On September 15, 2006, FAA provided us with its formal response, which is
contained in its entirety in the Appendix. Management generally concurred with
our findings and recommendations and is taking corrective actions that, when fully
implemented, will address the problems discussed in this report. All the corrective
actions are scheduled to be completed by February 5, 2007.

A complete discussion of Agency comments and our response can be found
starting on page 21.

FINDINGS

RESULTS Was Not Properly Structured To Meet FAA’s Needs
RESULTS was not structured in a way that allowed FAA to leverage its buying
power and obtain best value for its customers. It did not establish pre-negotiated
labor rates or standard staffing qualifications as part of its structure. Defining
labor rates and qualifications is key to streamlining the procurement process,
                                                                                   9

obtaining competitive prices, and ensuring that similar services are of consistent
quality and carry similar charges. Instead, customers had to define labor
requirements, and contracting staff had to negotiate labor rates for each individual
contract—a time-consuming and expensive process that resulted not only in
variations in the quality of labor provided but also in higher costs. Problems were
compounded because few contracting staff were assigned to award and administer
the contracts. We estimate that FAA could overpay for support services under
RESULTS between $24 million and $44 million due to these structural defects in
the procurement program.

The establishment of RESULTS occurred at the time of a major reorganization of
the Aeronautical Center’s Logistics Center. Aeronautical Center procurement
officials initially intended to create a comprehensive multiple-award program with
pre-established labor categories and rates for RESULTS. However, they
underestimated the length of time required to establish and obtain full approval for
such a program. Subsequently, a business decision was made to simplify the
design for RESULTS as a basic ordering agreement, with a list of qualified
vendors but without pre-established labor rates and qualifications. While this
allowed the program to be quickly approved for supporting National Airspace
System operations, it eventually prevented the Center from meeting the goals for
providing faster, cheaper, and quicker contract awards.

Labor Rates Were Not Pre-Established With Contractors Qualified To
Serve the Program
The RESULTS program was not structured to use pre-negotiated or pre-competed
labor rates when awarding individual contracts. Unlike other multiple-award
programs, such as GSA’s GWACs or FAA’s BITS II (Broad Information
Technology and Telecommunications Support Services II) or MASS (Multiple
Award Support Services) procurement programs, labor rates under RESULTS
were not competed or negotiated in advance among the firms that were qualified
to perform in the program. Pre-establishing rates in this manner would have
streamlined the award process and allowed FAA to leverage its buying power
up front by obtaining competitive labor rates from all of the participating vendors
and passing them on to customers without further need for individual labor-rate
negotiations. For instance, FAA’s BITS II procurement program pre-established
the labor rates for all contracts awarded to its vendors.

Further, pre-established labor rates could be used as a starting point to obtain more
favorable prices. Additional discounts or incentives could have been negotiated
from already-competitive prices by allowing additional price competition among
the qualified vendors, as FAA is currently achieving under its MASS procurement
program.
                                                                                                                 10

Instead, labor rates under RESULTS had to be individually negotiated from
scratch for each contract. This not only required customers to define their labor
requirements with sufficient detail to generate valid and responsive proposals, it
required contracting officers to evaluate individual submissions of proposed labor
costs, in addition to other proposed costs. As a result, each contract award was the
product of time-consuming individual negotiations for customized labor rates, and
the Agency was not positioned to take advantage of the best possible value for the
services it acquired.

We compared the rates being paid for 11 contracts against the rates for similar
labor categories in FAA’s other 2 multiple-award vehicles for support services.
We concluded that FAA will overpay between $12 million 5 and $22 million6 for
these 11 contracts if all the option years under these contracts are exercised. The
11 contracts were judgmentally selected for review and are associated with about
half the contract values awarded under RESULTS—about $242 million. Because
we did not select a random sample, we are unable to statistically project the total
amount of overpayment. However, if the same error rate exists on the remaining
103 RESULTS contracts, overpayments would range from about $24 million to
about $44 million.

Labor Qualifications Were Neither Specified at the RESULTS Program
Level nor Properly Defined in Individual Contracts
Unlike in other procurement programs, such as GSA’s Multiple Award Schedule
and GWACs and FAA’s BITS II and MASS, labor categories and qualifications
requirements were not specified as part of the RESULTS structure. Predefining
labor categories and qualifications makes it easier to compare prices for similar
categories and to readily determine best value. It also helps ensure that a common
basis exists for all vendors to submit competing labor rates. Pre-defined labor
categories and qualifications allow consistent labor quality to be acquired by
establishing minimum criteria for the expertise required to perform the work,
which provides a measure of assurance that the Government obtains the services it
anticipates under the contract (see an example in Exhibit B). However, RESULTS
did not incorporate standard qualifications for labor categories—in fact, there were
no standard labor categories in the program. Instead, requirements for labor,
including categories and qualifications, were to be defined by the customer in each
contract. This resulted in variations in the qualifications for similar labor types or
categories, inadequately defined categories and qualifications, or no qualifications
at all.


5
    An overpayment of $12 million was computed by comparing contractor rates to the rates negotiated for similar labor
    categories with the same contractor on another vehicle.
6
    An overpayment of about $22 million was computed by comparing contractor rates to the average rates paid for all
    contractors on another contract vehicle.
                                                                                                          11

Without standard qualifications or definitions for labor categories at either the
program or contract level, prices varied considerably from contract to contract for
the same type of labor. For example, 128 labor categories were required on the
11 contracts we reviewed, but only 35 of those were specified as deliverable in a
contract, and only 28 of those were adequately defined (see Exhibit C); the other
7 were listed but not defined (see Exhibit D).

Finally, a significant number of contracts—about 87 percent—awarded under
RESULTS were on a time-and-materials basis. Because these contracts
predominantly provide for labor hours, defining labor categories and qualifications
requirements becomes critical to ensuring consistent quality and billing for
services. Despite its significance, a centralized listing of labor categories was not
established at the program level, and labor categories and qualifications were not
adequately defined individually for the 11 contracts we reviewed.

Labor Rates Were Higher Than Those for Which Staff Were Qualified or
Tasked To Perform
The lack of properly defined labor categories and qualifications compromised, to a
large degree, assurance that FAA obtained the intended quality of support
services. It also allowed potentially unqualified contract employees to perform
work under RESULTS contracts. Some contractor staff did not meet the
expected 7 qualifications for positions billed. For example, an employee on 1 of
the 11 contracts we reviewed was originally billed as an administrative assistant at
an hourly rate of $35, but after only 4 months of work—and with no proof of
additional qualifications—she was billed as an analyst at an hourly rate of $71. In
another instance, an FAA executive’s spouse was billed on one RESULTS
contract as an information engineer, even though she lacked the training and
experience necessary to qualify for that labor category. Information engineers
perform duties such as designing and implementing systems using various
software languages, tools, and database management systems. This employee
nevertheless billed 1,367 hours (at $63 per hour—more than $86,000 in total) to
the contract for processing time-and-attendance records.

This becomes particularly troublesome when combined with the “revolving door”
practice. Contractor personnel in 3 of the contracts sampled included former FAA
employees who were 6 months or less separated from FAA employment. One
contractor paid its staff finder’s fees for recruiting FAA employees. About
21 percent of people working for this contractor are former employees of FAA.
While this practice does not violate any Government regulations, it creates
significant risk to FAA’s ability to maintain arm’s-length relationships with its
7
    Broad Information Technology and Telecommunications Support Services I—the predecessor procurement program
    to BITS II—was used as the reference to identify expected labor qualifications in instances where RESULTS
    contract labor qualifications were not adequately defined.
                                                                                  12

contractors when negotiating contract terms or overseeing contractor performance.
In October 2005, FAA modified AMS to require that companies bidding on FAA
contracts identify their employees who used to work for FAA or have relatives
working for FAA. However, FAA has not determined how this new information
should be used when evaluating contractor proposals.

Contracts Were Awarded Without Sufficient Competition or Adequate
Price Analysis
The lack of pre-established labor rates, categories, and qualifications required
strong compensating controls, such as competition and high-quality price analysis,
to ensure that the Government obtained the best value possible for the services
being acquired. Competition among vendors is the preferred method to ensure
that prices are fair and reasonable; price analysis also provides a reliable basis for
determining whether prices are reasonable. However, RESULTS procurement
officials did not encourage competition among the 142 vendors, nor did they
ensure that reliable price analyses were performed to properly evaluate proposed
costs.

Competition Was Not Enforced for RESULTS Contracts
Competition is recognized as the most effective way to obtain best value, yet FAA
focused on customer satisfaction, which placed a priority on awarding contracts to
incumbent contractors, instead of on the Agency’s preferred approach—using
competition whenever possible to obtain fair and reasonable prices.

Our review of 11 sample contracts showed that, effectively, none of them
benefited from sufficient competition. Of the 11 contracts, 8 were awarded
without any competition (i.e., were sole-source) and 3 were competed, but the
solicitations resulted in only 1 bid each.

This trend was RESULTS-wide. Of the 114 contracts awarded, half were sole-
sourced and half were competed;
of the half that were competed,       Figure 2. RESULTS-Wide
however, 30 (26 percent) resulted                       Competition
in only 1 bid (see Figure 2). In                   Competed
                                                (more than 1 bid)
effect, 87 of 114 contracts                           24%

(76 percent)—more            than
three-quarters of all awards—
were not effectively competed.
Only 27 contracts (24 percent)
                                                                     No competition
benefited from competition. In         Competed
                                        (1 bid)
                                                                    (single source)
                                                                          50%
addition, of the 142 vendors that        26%


pre-qualified under RESULTS for
FAA work, only 40—less than a
                                         Source: FAA
                                                                                 13

third—actually obtained contracts, further pointing to inadequate competition
under the procurement program. Sole-sourcing accounted for about $247 million
out of $543 million RESULTS contracts.

FAA’s acquisition policy does allow it to contract with a sole source when in the
best interests of the Agency, but sole-sourcing must be justified by a
well-documented rationale that must be more than a mere statement of fact.
However, of the eight sole-sourced contracts we reviewed, only one had adequate
justification. For example, sole-sourcing one contract was justified by a market
survey of RESULTS vendors that showed that no other vendor had the combined
background, experience, and knowledge to adequately perform the required
services. Yet no support was provided to demonstrate that the market survey was
actually conducted or to show exactly how the selected contractor was the only
pre-qualified vendor capable of performing the required task—collecting and
processing data from air carriers. Overall, the justifications for sole-source awards
were little more than unsupported statements, yet contracting officers and
procurement attorneys allowed them to be used to support sole-source awards.

The underlying reason that contracts were sole-sourced is that RESULTS’
customers preferred the work to remain with incumbent contractors. Contracting
staff members did not discourage this practice because they were more focused on
customer satisfaction in order to obtain the service fee. Oversight of the
contracting process was lax as well: procurement attorneys at the Aeronautical
Center were overly permissive in allowing sole-sourcing in half of the
procurements. When the over-reliance on sole-sourcing was brought to the
attention of FAA Headquarters officials, the Administrator implemented a
corrective procedure to enforce competition. She directed contracting officials to
follow AMS guidance to engage in competition and the Deputy Administrator to
review and approve all Agency procurements for support services of $1 million or
more when fewer than three bids are received.

Price Analyses Were Inadequate To Ensure Fair and Reasonable Costs
Normally, adequate competition establishes price reasonableness. However, due
to the lack of competition under RESULTS, FAA had to rely on other price
analysis techniques to determine whether proposed contract costs (for labor rates,
overhead, and profit) were fair and reasonable. The techniques used by FAA
included comparing rates proposed by the contractor with independent
Government cost estimates and then using the results as the Government’s basis
for negotiating a final contract price. They also included comparisons of proposed
costs for similar work under other procurement programs. Although price
                                                                                                                   14

analyses were performed for 9 of the 11 contracts we reviewed, none of them were
adequate. 8

FAA’s independent Government cost estimates were either unreliable or invalid,
compromising the Government’s negotiating position from the start. Independent
Government cost estimates are considered to be a valid standard for comparison if
they are based on realistic analysis that accounts for past purchase prices and
analysis of similar work; they are deemed reliable to determine price
reasonableness if they account for information sources and techniques used.

However, the Agency’s independent Government cost estimates we reviewed
often used questionable sources and did not describe price analysis techniques
used to arrive at the cost estimates. The sources of the rates used were often not
documented, so it was not possible to determine what rates were compared or if
the comparison was valid. Further, the cost estimates were often not dated,
making it difficult to determine how current the rates used in the comparisons
actually were or how current the cost estimate was relative to proposed prices. In
addition, none of the Agency’s cost estimates we reviewed was signed, so we
could not determine who developed them or whether they had been reviewed. In
one instance, the cost estimate was not valid because it was prepared by the
contractor to whom the contract was awarded. None of the estimates described the
approach used to produce the estimate.

In addition, these cost estimates sometimes appeared to be ignored: in two
instances, proposed labor rates were significantly higher than the Agency’s cost
estimates but were nevertheless accepted. According to a contracting officer
familiar with one of these instances, the proposed labor rates for the contract were
within 15 percent of the Agency’s cost estimate and were therefore acceptable as
proposed; however, we could not find any policy allowing this practice in FAA’s
Pricing Handbook. In this case, the Agency’s cost estimate allowed significant
variance for individual labor categories. For example, the contract allowed the
president of the company to bill for services at the rate of over $300 per hour,
when the Agency’s cost estimate for this work allowed only $150 per hour. As a
result, FAA has paid more than $87,000 over its own estimate for this work.

Price analysis can also be performed by comparing proposed costs with prices
established for similar work already negotiated in other FAA procurement vehicles
or published under other Government procurement programs, 9 such as GSA’s
GWACs or Multiple Award Schedule. However, for seven of eight contracts,

8
    We focused on nine contracts awarded on a time-and-materials basis because in cost-reimbursable contracts, which
    include time-and-material contracts, FAA bears the burden for performance and the responsibility for any cost
    overruns.
9
    FAA’s procurement policy states that comparison of proposed prices to prior or existing contract prices for the same
    or similar services is an acceptable method of performing price analysis.
                                                                                                                    15

comparisons did not consider the lower rates already negotiated with the same
contractor on FAA’s other multiple-award programs and on GSA schedules. On
one contract, an hourly rate of $180 was approved for a program manager, but the
rate for the same position, pre-established under FAA’s BITS II program, was
$129 per hour. Proposed labor rates were not compared in six of eight contracts
with rates for the same contractor and labor categories published on GSA’s
multiple-award schedule, which could have yielded additional insight into the
fairness of prices proposed under RESULTS.

FAA can also request cost and pricing data from contractors to ensure that
negotiated prices are fair and reasonable. 10 However, except for one instance,
FAA did not request such information for any of the contracts we reviewed,
relying instead on its limited independent Government cost estimates.

Deficiencies Were Found in the Management and Administration of
Individual Contracts
Problems with the RESULTS structure and lack of sufficient competition and
reasonable rates were compounded by deficiencies in managing and administering
individual contracts. RESULTS contracting staff members were supposed to
provide the technical support to ensure that requirements were properly defined
and that appropriate contractual terms were obtained. However, RESULTS was
rushed into implementation before it could be adequately staffed to handle the
volume of contracts being awarded and maintained at the Aeronautical Center. As
a result, the program did not establish effective control over its contract
administration functions.

Overworked staff and turnover, along with an emphasis on customer service that
allowed customers to dictate preferred terms and an automated billing system that
bypassed contracting officers, contributed to ineffective controls over contract
payment and monitoring. These problems, in turn, resulted in instances of
payments made without contracting officers’ approval and contract ceiling
overruns, inability to measure contractor performance, unsuitable contract types,
work performed outside specified statements of work, and missed opportunities to
recover unallowable costs through contract audits. FAA was unable to terminate
one contract for poor performance because the contract had no clear performance
requirements. In addition, there was insufficient oversight to effectively monitor
and detect shortcomings, and no corrective action was taken until our audit
revealed the impact of those shortcomings.


10
     Cost and pricing data should be requested only when the contracting officer does not have reasonable assurance that
     the costs or prices are fair and reasonable based on price analysis or other means of evaluation, if the contracting
     officer determines that the level of competition does not support a determination of price reasonableness, or if the
     contractor’s price cannot otherwise be determined.
                                                                               16

Payments Were Made Without Contracting Officers’ Approval and Contract
Ceilings Were Exceeded
The payment process under RESULTS allowed approval of invoices by poorly
trained program officials who validated invoices and then submitted the validated
invoices for payment using an automated system that bypassed contracting officer
review. As a result, improper payments were made in two instances and in one of
these instances, payments exceeded the contract ceiling. For example, the lack of
contracting officer oversight allowed payments under one contract to exceed the
contract ceiling by over $3 million. Fourteen of 81 time-and-materials contracts
(17 percent) awarded under RESULTS have exceeded their ceiling costs by a total
of $17 million. More than $32,000 was improperly paid to a contractor on just
one invoice that had been approved for payment without the contracting officer’s
knowledge.

After we pointed out this problem to FAA, the Agency required invoices to be
reviewed and authorized for payment by contracting officers. FAA halted almost
$1 million in payments within 2 months of implementing the new review
requirement.

Deliverables Were Not Defined and, in One Case, Performance Problems
Were Not Addressed
Instead of providing assistance to customers by clearly defining deliverables and
ensuring that adequate performance measurement was included as recommended
in AMS, RESULTS contracting staff allowed contracts to be awarded without
these critical components. Six of the 11 contracts we reviewed lacked well-
defined deliverables and milestones; acceptance criteria were missing in
10 contracts and were poorly defined in 1. For example, the deliverables for one
contract required providing training services, but neither the number of people to
be trained nor the numbers of classes was specified.

Another contract specified an acceptance criterion for software development as
testing complete instead of also specifying that the completed testing be
successful. In addition, over 100 known software failures, discovered in early
testing of the system, were never adequately addressed, nor was their resolution
tracked or monitored as part of routine contract management. The software failed
FAA testing; was deemed immature, unusable, and unsafe; and was never
deployed. In addition, the contractor stopped maintaining a database but
continued to issue performance reports claiming that the work had been
completed. FAA was unable to terminate the contract for cause because the
acceptance criteria in the contract were too weak to hold the contractor
accountable for the poor performance.
                                                                                                               17

Unsuitable Contract Types Were Used
Four of the 11 contracts we reviewed involved software development work and
were paid on a time-and-materials basis, a contracting approach that
accommodates a lack of defined requirements and offers contractors little
incentive to control costs or complete work on time. Specific warnings have been
sounded against the use of time-and-materials contracts for software development
work, cautioning that these contracts may not be appropriate for software
development because the Government only obtains best effort as opposed to a
product. 11 Time-and-materials contracts do not make efficient or successful
performance a condition of payment and complicate the process of making sound
quality-price tradeoffs and of determining best value based on hourly rates. In
addition, this type of contract requires intensive Government monitoring to
provide reasonable assurance that effective cost controls are being used.

The contractor on one time-and-materials-based contract continued to be paid for
work performed after the contract ceiling was exceeded, even though the software
product being developed repeatedly failed testing. Use of cost-plus-fixed-fee line
items for the detailed task of developing software would have provided FAA with
better control over costs and performance. Other types of contracts and line items
could also have been considered in the contracts reviewed; for example, fixed-
price contracts or line items could have been considered for certain engineering
services, including preparation of reports.

Despite the risk to the Government, 81 of 114 contracts awarded under
RESULTS—87 percent—were of the time-and-materials variety, referred to by
FAA’s own acquisition policy as a type of contract where the Government bears
the greatest risk for controlling costs. In this type of contract, the contractor is
guaranteed a profit regardless of cost overruns.           The preponderance of
time-and-materials awards exposed the Government to unacceptable and
unnecessary levels of risk.

Contractors Performed Work Outside of the Specified Statement of Work
Over half a million dollars in costs were billed to one contract for performing
time-and-attendance services and supporting a budget conference. However, these
services were never specified in the contract’s statement of work. Although the
contract called for services related to administering a specific project, FAA
program officers gave verbal instructions to the contractor to add seemingly
unrelated tasks, such as supporting an FAA budget conference in Las Vegas,
Nevada, for another program office and performing time-and-attendance functions
for other FAA staff offices. These verbal requests were not documented in
modifications to the contract, nor were approvals sought from the contracting

11
     “Justify Time-and-Materials Contracts, OFPP says,” Government Computer News 23, no. 15 (June 21, 2004).
                                                                                                                      18

officer, because program officials believed that these services were covered under
the contract, despite the fact that they were not specified.

When RESULTS was first established, contracting staff believed that the full
range of potential RESULTS services were readily available for use in each
individual contract, regardless of whether those services were documented in
specific statements of work. Allowing the contractor to perform these potential
services that exceeded those required in the statements of work contributed to cost
overruns in one of the contracts reviewed. FAA recently revised its initial position
and agreed that services should be limited to the specified statements of work in
individual contracts. It is unclear what additional costs have been incurred as a
result of work performed outside the specified statement of work in the contracts
up until this time.

Required Contract Audits Were Not Obtained for Contracts Awarded
Under RESULTS
Ten of the 11 contracts we reviewed did not receive post-award audits, resulting in
missed opportunities for recovering potentially excessive or unallowable contract
costs. According to AMS, audits are required for all cost-reimbursable contracts
valued at $100 million and above and 15 percent of those contracts valued at less
than $100 million, including time-and-materials and labor-hour contracts. The
Defense Contract Audit Agency’s (DCAA) and our detailed review of one
contract in our sample identified excessive contract charges, including charges for
lease payments and executive compensation. Conducting post-award audits has
proved to be a cost-effective control mechanism: DCAA audits, on average, have
saved about eight times more funds than they cost. 12 FAA lacked procedures at
both the program office and the Aeronautical Center to ensure that sufficient
numbers of contracts were set aside for audits and that funds were set aside at the
program level for obtaining them.

FAA Enhanced Procurement Controls but Follow-Through Is Needed
During our audit, FAA took several initiatives to enhance control over
procurement activities and over the RESULTS program in particular. The
Administrator’s August 11, 2005 memorandum (see Exhibit E) issued directives to
the Agency to enhance FAA-wide procurement of support services on two fronts.
First, it called for two initiatives at the executive level: Deputy Administrator
review and approval of sole-source contract awards valued at $1 million and above
and establishment of a financial oversight function in the office of the CFO to
review and approve all support services contracts valued at $10 million and above.
Second, the memorandum directed Agency acquisition officials to adhere to

12
     During the last 5 years, the Department of Transportation has realized over $123 million in cost savings by investing
     $15 million in contract audits.
                                                                                  19

FAA’s AMS guidelines for procurement of all support services and specifically
addressed numerous requirements, including ensuring that statements of work and
independent cost estimates are prepared by the Government, not contractors;
comparing rates and capabilities from multiple sources when acquiring services;
ensuring that detailed and supported invoices are reviewed and approved; and
ensuring that labor categories are accurate and reflect the work being done.
However, more needs to be done on both fronts to reap the full benefit of the
Administrator’s directive.

Progress Made in Implementing Executive Initiatives
FAA has made good progress in implementing the executive-level initiatives.
Sole-source contracts valued at $1 million and above are now awarded only after
the Deputy Administrator’s review and approval. In addition, FAA developed and
conducted updated ethics and procurement training for all Agency procurement
staff. Also, the CFO’s office developed a comprehensive checklist and started
reviewing contracts valued at $10 million and above in October 2005.

The CFO is still in the process of building this capability. We reviewed three
procurements that were approved by the office of the CFO. We found the reviews
to be compliance-oriented only, with a focus on verifying the existence of key
documents, such as independent Government cost estimates. The team’s reviews
would be improved if they included more substantive reviews of the quality of the
financial-related work performed by requesting officials. FAA is still in the
process of staffing its team, defining responsibilities, and developing review
procedures.

Oversight Mechanism To Ensure Adherence to AMS Is Not in Place
FAA’s acquisition policy provides the tools to accommodate the Agency’s need
for rapid, cost-effective, high-quality (faster, cheaper, better) services, but these
tools were not used effectively in RESULTS. The Administrator’s memorandum
of August 11, 2005, and an attached memorandum from FAA’s Acquisition
Executive dated May 25, 2005, emphasized that acquisition policy was not always
followed when acquiring support services. Although our audit found that
RESULTS contracting officers made progress in implementing AMS requirements
for contracting officers’ reviews of payment requests, it also revealed many
instances in which FAA program and contracting officials departed from AMS
guidelines. For example, we found insufficient comparisons of rates and
capabilities among multiple sources to determine price reasonableness and that
labor categories were not accurately defined to reflect work being done. Given
this condition, more action is needed—in addition to re-emphasizing adherence to
AMS—to ensure that procurement officials comply with AMS.
                                                                                  20

FAA needs to implement an effective oversight mechanism to ensure that AMS is
being followed. FAA’s Acquisition Executive function, in addition to assisting
with investment and budget decisions, is primarily limited to managing AMS
policy. The responsibility for enforcing implementation of AMS policy and
guidelines is left to individual procurement offices. However, we found a lack of
oversight procedures to ensure adherence to AMS at the Aeronautical Center. An
internal review by FAA also identified the need for an oversight mechanism for
enforcing compliance with AMS. In August 2005, an internal report on FAA’s
multiple-award contracting vehicles recommended the development of an
independent oversight program. This independent program has not been
implemented. Without such a program, it is unclear to us how FAA will be able to
detect instances of departure from AMS and prevent deficiencies like those
identified in RESULTS from recurring.

FAA has taken steps to dissolve the RESULTS procurement program. First, they
stopped awarding new contracts, discontinued the RESULTS program website,
and terminated 12 contracts this year. Second, FAA will recompete all remaining
RESULTS contracts, with the exception of five, at the end of their current
performance (option) periods. FAA has decided to allow program officials to
exercise all options under those five contracts because they either have unique
requirements or were properly competed.

FAA’s actions to dissolve the RESULTS program are reasonable. However, we
are concerned that FAA plans to replace discontinued RESULTS support services
with stand-alone contracts to be managed by either Headquarters or Aeronautical
Center contracting officers. This is not an efficient use of resources because each
replacement contract will still have to be individually negotiated. Instead, FAA
should consider using other existing multiple-award programs, such as the GSA’s
GWACs to acquire replacement services. These procurement programs already
have built-in controls, such as centrally defined labor categories and qualifications
and pre-competed labor rates, which not only streamline the contract award
process but also help ensure reasonable prices.

RECOMMENDATIONS
We recommend that the FAA Administrator direct the Acquisition Executive to:

1. (a) Ensure that existing multiple-award procurement programs established by
   either FAA or other Federal agencies are used to acquire support services
   discontinued under the RESULTS program; (b) ensure that the Acquisition
   Executive’s written approval is obtained for stand-alone contract awards to
   acquire such replacement services; and (c) report to the Administrator on the
   status of replacement contract awards in 6 months.
                                                                              21

2. Provide sufficient justification to the Joint Resources Committee—FAA’s
   Investment Review Board—for approval before establishing any new FAA-
   specific, multiple-award procurement programs.

3. Develop guidance describing how the information concerning former FAA
   employees working for contractors should be used when evaluating contract
   proposals.

4. Develop oversight mechanisms to ensure that AMS requirements are
   consistently implemented by all FAA procurement offices, and that adequate
   progress is made in implementing the instructions in the Administrator’s
   August 11, 2005 memorandum.

5. Conduct periodic reviews of contracting activities at all FAA procurement
   offices.

We recommend that the FAA Administrator direct the Chief Financial Officer to:

6. Revise the procedures for reviewing and approving contracts valued at
   $10 million and above to ensure that the quality of financial work performed
   by procurement and contracting staff is assessed, price analysis is properly
   conducted, and justification for not obtaining a pre-award audit is adequately
   documented.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
A draft of this report was issued to the FAA Deputy Administrator, the Assistant
Administrator for Financial Services/CFO, and the Vice President of Acquisition
& Business Services for comments on August 7, 2006. We considered their
comments in preparing the final report. FAA’s Assistant Administrator for
Financial Services/CFO responded on September 15, 2006, and generally
concurred with our recommendations. The response is summarized below.

Recommendation 1: FAA partially concurred. FAA will use existing multiple-
award programs to acquire support services discontinued under RESULTS and
obtain the Acquisition Executive’s written approval for any stand-alone contract
awards. FAA agreed to provide a procurement strategy for any remaining
replacement contracts to its Acquisition Executive by September 30, 2006, for
review and approval. Also, any replacement contract, or interim contract until a
replacement can be awarded, for support services on a single-source basis and
with an estimated value of $1 million or above must be reviewed and approved by
the Deputy Administrator; proposed procurements for information technology
valued over $250,000 must be reviewed and approved by FAA’s Chief
                                                                                22

Information Officer, and proposed procurements with an estimated value of
$10 million or above must be reviewed and approved by the CFO. According to
FAA, some replacement contracts have been awarded and with positive results.
For example, the NEXGEN support services contract was recompeted in FY 2006
and resulted in approximately 45 percent savings ($20 million) over a 5-year
period.

A status report will be provided to the Administrator every 6 months starting
February 5, 2007, until all replacement contracts are awarded.

OIG Response: FAA’s planned actions meet the intent of our recommendation.

Recommendation 2: FAA partially concurred. FAA agreed that for mission
needs of sufficient size, complexity, or broad applicability where part of the
solution is to establish a new FAA-specific, multiple-award procurement program,
the Joint Resources Committee will review and determine whether to approve that
solution. The estimated value of RESULTS and its use across FAA’s lines of
business, for example, would be the type of mission need requiring the
Committee’s approval. However, for mission needs of smaller size or complexity
or for qualified vendors lists intended to be used across the Agency the FAA’s
Acquisition Executive will review and determine whether a new FAA-specific,
multiple-award procurement program should be used. FAA will also require
sufficient justification be provided to FAA’s Acquisition Executive for his
approval prior to establishing any new FAA-specific, multiple-award procurement
programs. FAA will amend its AMS guidance by January 31, 2007, to include
these changes.

OIG Response: FAA’s planned actions meet the intent of our recommendation.

Recommendation 3: FAA concurred. FAA acquisition personnel have been
trained in how to use information concerning former FAA employees working for
contractors when evaluating contract proposals. FAA will formally incorporate
that guidance into FAA’s AMS by by January 31, 2007.

OIG Response: FAA’s planned action meets the intent of our recommendation.

Recommendation 4: FAA concurred. Currently, procurement oversight
mechanisms are in place for FAA’s regions and centers, as well as its
Headquarters office, but there is some variation in the mechanisms used. For
example, the Assistant Administrator for Regions and Center Operations instituted
a formal Procurement Evaluation Program to conduct triennial reviews of the
regions and Aeronautical Center post-award contracting beginning in May 2006.
This is a thorough review of the entire contract file to ensure compliance with the
policies and guidelines in the AMS. FAA will develop a nationwide, uniform
                                                                               23

mechanism for such oversight under FAA’s Acquisition Executive and incorporate
this procedure into the AMS by January 31, 2007.

OIG Response: FAA’s response describes specific oversight mechanisms that
were put into place and planned actions in detail. Although this response does not
specifically address ensuring the implementation of all AMS requirements and all
of the Administrator’s August 11, 2005 memorandum instructions, the proposed
oversight procedures meet the intent of our recommendation.

Recommendation 5:           FAA concurred.          As with the response to
Recommendation 4, FAA has programs for periodic reviews of contracting
activities at all FAA procurement offices, but there is some variation in how, by
whom, and how often these reviews are conducted. FAA will develop a uniform
program for periodic reviews at all FAA procurement offices and incorporate this
program into FAA’s AMS by December 31, 2006. FAA’s Acquisition Executive
will have the oversight responsibility to ensure that these reviews are properly
conducted and to direct any corrective actions that might be needed.

OIG Response: FAA’s planned action meets the intent of our recommendation.

Recommendation 6: FAA partially concurred. FAA’s CFO has revised his
procedures for reviewing and approving proposed procurements valued at
$10 million and above to ensure that the proposed investment of FAA’s resources
is appropriate and that the acquisition program has adequate financial controls.
FAA also concurred that the quality of the financial work performed by
contracting staff should be assessed, including assuring that price analysis is
properly conducted and justification for not obtaining a pre-award audit is
adequately documented. However, FAA stated that oversight of the contracting
staff should be included as part of the Acquisition Executive’s oversight and
periodic reviews, described above.

OIG Response: FAA’s planned actions meet the intent of our recommendation.

ACTIONS REQUIRED
We appreciate the courtesies and cooperation of FAA Headquarters and Mike
Monroney Aeronautical Center representatives during this audit. If you have any
questions concerning this report, please call me at (202) 366-1496 or Terry Letko,
Program Director, at (202) 366-9917.

                                        #
                                                                  24

cc: Assistant Secretary for Budget and Programs/CFO, Department   of
    Transportation
    Senior Procurement Executive, Department of Transportation
    Assistant Administrator for Financial Services/CFO, FAA
    Assistant Administrator for Region/Center Operations, FAA
    Vice President of Acquisition & Business Services, FAA
    Director, Mike Monroney Aeronautical Center, FAA
    Martin Gertel, M-1
    Anthony Williams, ABU-100
                                                                                              25


EXHIBIT A. SCOPE AND METHODOLOGY
In addressing our objectives, we analyzed contracts, invoices, and accounting
records to determine percentages of contracts awarded and reviewed provisions of
RESULTS to determine the process for awarding contracts and negotiating rates
for products and services. We also reviewed AMS procurement policies and
guidance regarding contract requirements and the roles and responsibilities of
contracting officers, and reviewed the Memorandum of Understanding between
the FAA Logistics Center and Office of Acquisition Services.

Table 2 shows the 11 contracts awarded under RESULTS that we analyzed in
detail, with their values and amounts awarded as of February 2006.

       Table 2. The 11 RESULTS Contracts Reviewed in Detail
                 Procurement                           Potential Value          Amount Obligated
                                                        ($ in millions)          ($ in millions)
 MILOPS                                                        $ 7                      $15
 NEXGEN                                                          42                        4
 National Airspace System Defense Plan                            5                        2
 ATS LAN Support                                                 29                       11
 NIRMA IT Support                                                25                        9
 ASI IT Support Service                                          29                        9
 Comm., WX, Flight/IRM Service                                    6                        2
 System of Airports Reports                                       5                        3
 SMS Implementation                                               5                        2
 PDARS Support No. 1                                              2                        2
 PDARS Support No. 2                                             87                        6
  Total                                                       $242                      $65
Source: FAA
MILOPS: Military Operations Program
NEXGEN: Next Generation Aviation Transportation System
ATS LAN: Air Traffic Services Local Area Network
NIRMA IT: National Information Resource Management Augmentation Information Technology
ASI IT: Office of Security and Investigations Information Technology
Comm., WX, Flight/IRM Service: Flight Services and Weather Systems Engineering Support
SMS: Safety Management Systems Implementation
PDARS: Performance Data Analysis and Reporting System


We reported the PDARS Support procurements as being associated with one
initial contract in our draft report but clarified that a second contract was awarded
after our July 2005 field visit to the Aeronautical Center. We decided to report
each contract separately in the final report to clearly reflect that the audit included



Exhibit A. Scope and Methodology
                                                                                   26

a detailed review of both PDARS Support contracts. We amended the final report
throughout to reflect the 11 contracts reviewed.

We did not rely on automated databases as part of our audit. FAA provided a
listing of contracts, and we used multiple criteria to select 11 contracts for review.
We validated the amount obligated for those 11 contracts.

    • We selected three contracts from each of the two vendors with the largest
      number of contract awards to review for preferences when awarding these
      contracts, if any. One of these six contracts was a troubled contract that the
      Senate Finance Committee requested we review.

    • We selected most contracts with high award values because these contracts
      generally have higher risk and commensurately more workload for the
      program and contracting staff.

    • We included a number of sole-source awards to gain an understanding of
      the high occurrence of sole-source awards under the program.

    • We ensured that each contract selected was funded by a different program
      office. This helped us to ascertain that any problems identified would not
      be isolated to particular programs. An exception being the PDARS
      Support procurement, for which two awards were made to support the
      effort. FAA initially identified that all PDARS support would occur under
      one contract.

    • We selected contractors that were qualified on more than one multiple-
      award program. This allowed us to compare practices for awarding
      contracts with other multiple-award procurement programs.

We conducted interviews with contracting officers in Oklahoma City and their
technical representatives in Washington, DC, to determine whether they had
adequate training, experience, and warrant authority. We also interviewed FAA’s
Federal Acquisition Executive in Washington, DC, and the manager of the Office
of Acquisition Services, FAA’s RESULTS Program Manager, and the Director of
the Office of Acquisition Services, all at FAA’s Mike Monroney Aeronautical
Center in Oklahoma City.

We reviewed contract files at the Aeronautical Center and applicable
documentation to determine whether contracts were properly awarded;
requirements, deliverables, and acceptance criteria were well defined; and whether
sole-source justifications and price analysis were adequately performed.


Exhibit A. Scope and Methodology
                                                                            27

Throughout the review, we worked closely with investigators reviewing
allegations furnished by the Senate Finance Committee on one contract, and we
extended our audit procedures to test whether illegal acts might have occurred.
We performed this audit between May 2005 and September 2006, in accordance
with Generally Accepted Government Auditing Standards prescribed by the
Comptroller General of the United States and performed tests we considered
necessary to detect fraud.




Exhibit A. Scope and Methodology
                                                                             28


EXHIBIT B. EXAMPLE OF A BITS II STANDARDIZED LABOR
CATEGORY DEFINITION
This definition comes from Broad Information and Technology Services II
(BITS II) Labor Categories

     01    Program Manager

     Functions: Acts as the overall lead, manager and administrator for
     the contract effort. Serves as the primary interface and point of
     contact with government program authorities and representatives on
     technical and program/project issues. Supervises program/project
     operations by developing procedures, planning and directing
     execution of the technical, programming, maintenance and
     administrative support effort and monitoring and reporting progress.
     Manages acquisition and employment of program/project resources.
     Manages and controls financial and administrative aspects of the
     program/project with respect to contract requirements. As a result of
     the above functions, a Secret clearance is required for the position.

     Qualifications:      A Master’s Degree in Computer Science,
     Mathematics, Engineering, Statistics or Business Administration
     from an accredited college or university and eight (8) years of
     management and supervisory experience including performance in
     each of the foregoing functions with respect to technical
     programs/projects or a Bachelor’s Degree in Computer Science,
     Mathematics, Statistics, Engineering, Operations Research or
     Business Management from an accredited college or university and
     twelve (12) years of management and supervisory experience
     including performance in each of the foregoing functions with
     respect to technical programs/projects.




Exhibit B. Example of a BITS II Standardized Labor Category
Definition
                                                                         29


EXHIBIT C. EXAMPLE OF A RESULTS LABOR CATEGORY
DEFINITION
This example of a definition of a labor category comes from the RESULTS
contract: Contractor’s Proposal for Screening Information Request # DTFAAC-
04-R-00114


      Program Manager. Responsible for management, business, and
      technical aspects of project. Manages and supervises project
      personnel.     Reviews and approves all deliverables prior to
      submission. Maintains close liaison with FAA personnel. Monitors
      and reports on contract and task progress relative to technical,
      schedule, and financial matters. Bachelor’s degree and 10 years
      related experience required for position.




Exhibit C. Example of a RESULTS Labor Category Definition
                                                                      30


EXHIBIT D. EXAMPLE OF INADEQUATELY DEFINED LABOR
CATEGORIES IN RESULTS CONTRACTS
This list of inadequately defined labor categories comes from the RESULTS
contract: Contractor’s Technical Proposal # DTFAAC03F03343


      Senior Consultant
      Database Manager
      Applications Programmer
      Information Engineer
      Senior Programmer
      Programmer
      Computer Security Specialist




Exhibit D. Example of Inadequately Defined Labor Categories in
RESULTS Contracts
                                                                                           31


EXHIBIT E. FAA ADMINISTRATOR’S MEMORANDUM OF
AUGUST 11, 2005, REGARDING PROCUREMENT REFORM


                          Federal Aviation
                          Administration
                                         13
Memorandum
Date:               August 11, 2005
To:                 Management Team
From:               Marion C. Blakey, Administrator
Subject:            Financial oversight of FAA service contracts


Every year the FAA uses outside companies to provide more than $1.3 billion in services
-- on top of the monies spent to acquire equipment, off-the-shelf software, hardware and
other products that we need to run the National Airspace System. These services
contracts range from software development agreements to consulting agreements on areas
where the FAA lacks internal expertise to maintenance contracts on non-FAA equipment.
Many of the actual procurements for services are done under one of three “umbrella”
agreements (administered by the Technical Center, the Aeronautical Center, and
headquarters) under which companies are either pre-qualified or have competed to be
eligible for selection.

These umbrella agreements, when administered correctly, can be very helpful. They are
designed to allow us to get the job done expeditiously for the taxpayers and to cut down
on unnecessary bureaucratic review. But it is also important to emphasize that we must
always get the job done right – which means adhering to the highest possible ethical
standards and being responsible stewards of the taxpayers’ money. Indeed, Secretary
Mineta has made it repeatedly clear that observing these standards of procurement
integrity is a cornerstone of DOT’s mission, and as recently as June the Secretary issued
an order that will help each modal administration to ensure that its contractors strictly
comply with their obligations to us.

As you know, the agency faces some very difficult financial choices ahead. I’ve
previously made the point that we now have more work to do – from moving lots of
smaller jets through the air traffic system to certifying new air carriers, aircraft and

13
     The original memorandum was unsigned.

Exhibit E. FAA Administrator’s Memorandum of August 11, 2005,
Regarding Procurement Reform
                                                                                      32

technologies – with fewer resources and a declining Aviation Trust Fund. In this
environment, we simply must control our expenses, one of the largest of which is our
services contracts, and we must also ensure that every taxpayer dollar is spent wisely,
effectively, and properly. That means we have to look on a more fundamental level at the
financial and contractual controls we have in place to avoid unnecessary, improper, or
avoidable expenditures on outside services.

For the last several months, prompted by some specific examples of potential waste under
the umbrella agreements brought to my attention by the Inspector General, a team of
individuals under the direction of Dennis DeGaetano, our Acquisition Executive, has
been scrutinizing our approach to support services agreements. They are making
substantial progress. And although their work is ongoing, I’ve made some decisions on
initial steps we must take now to better control our spending in this arena and to
guarantee that safeguards against waste, fraud and abuse are observed:

   •   First, we will be amending our procurement policies to require competitive
       bidding on all support service contracts with a total value of $1 million or more.
       Sole source contracts for such requirements will not be permitted -- unless the
       Deputy Administrator has approved making an award on this basis. I am also
       asking the Deputy Administrator to review any proposed support services contract
       award where fewer than three bids were received in the competition.
       Statements of work in proposed sole source solicitations will also be held to a
       higher standard, as our policy will require that we be very specific about the kind
       of work we are looking to buy. These new rules will apply not only to the
       contracts themselves but also to task, delivery and work orders under any of the
       umbrella agreements, as well as to modifications expanding the scope of a support
       services contract.

   •   Second, the agency’s Chief Financial Officer will be exercising greater oversight
       and fiscal control over all agency procurements, including support services
       agreements as well as other types of agreements. Before the agency issues any
       procurement request for products or services costing $10 million or more, we will
       require written authorization from the CFO. We will also establish within the
       CFO’s newly created Financial Controls division an independent cadre of
       personnel with significant acquisition and financial controls experience. This
       team, assisted by procurement attorneys, will advise the CFO in his reviews of
       proposed acquisitions of goods and services.

   •   Third, I am directing our Acquisition Executive, in conjunction with the Chief
       Counsel’s office and our Human Resources office, to institute mandatory in-depth
       training on procurement integrity for all FAA program officials, as well as all
       contracting officers, to be completed within six months. This training will
       supplement our required ethics courses. We’ll also require periodic recurrent
       training, so that we stay up to speed on this highly important topic.




Exhibit E. FAA Administrator’s Memorandum of August 11, 2005,
Regarding Procurement Reform
                                                                                         33

Finally, I am distributing to the entire agency a memo provided by Dennis earlier this
year on support services contracts. I want to emphasize a few points from that memo,
highlight some of our existing requirements, and alert you to a few new ones:

   •   The entire service team (including contracting officers, technical representatives,
       attorneys, program officials) should ensure that there is a good business case for
       the services being acquired . . . that they don’t overlap or duplicate services being
       acquired elsewhere in the agency . . . that the FAA has the expertise to monitor
       the contractor’s performance . . . and that we have a solid, well documented
       rationale for selecting the contractor.

   •   Statements of Work, Independent Government Cost Estimates, and Market
       Surveys must always be prepared by the Government, not the contractors who
       will perform the work.

   •   Except when approved by the head of the line of business and Acquisition
       Executive, the agency may not enter into personal services contracts. And under
       no circumstances may contractors be used to perform inherently governmental
       duties, like budgeting for FAA programs.

   •   When acquiring services from a multiple award schedule or acquisition program,
       the procedures for competing task orders, or comparing rates and capabilities
       from multiple sources must be fairly and strictly followed.

   •   Contractors must supply detailed invoices that support with specificity and
       orderliness, the services rendered and amounts billed. Going forward,
       Contracting Officers must review and approve all invoices submitted to FAA
       under FAA contracts other than as provided for under the Government purchase
       card program.

   •   Labor categories must be accurate and must honestly reflect the work being done.
       For example, a time and attendance clerk may not be billed to the government as
       an “information engineer,” because doing so inflates the costs to the taxpayers.

   •   Contract ceilings must be reasonably related to the amount of work anticipated to
       be ordered and, in no instance, should exceed 10% of funding required to support
       the work reasonably anticipated.

In the next few weeks, more detailed memoranda outlining the policies will be coming.
Some of these will require changes in the way we do business, but I am convinced these
moves are necessary. I’ll be looking for your support as we work through these
important changes.



                                   Marion C. Blakey

Exhibit E. FAA Administrator’s Memorandum of August 11, 2005,
Regarding Procurement Reform
                                                                   34


EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT

  Terrence J. Letko                     Program Director

  Leonard F. Meade                      Project Manager

  Joanne Adam                           Project Manager

  Heidi E. Leinneweber                  Senior Management and Program
                                         Analyst

  Adam Schentzel                        Senior Auditor

  Michael P. Fruitman                   Communications Adviser

  Lawrence Heller                       Senior Auditor

  Timothy Roberts                       Senior Auditor

  Stacie A. Seaborne                    Management and Program
                                         Analyst

  Keyanna Frazier                       Auditor

  Narja Hylton                          Auditor

  Kathleen Huycke                       Writer/Editor




Exhibit F. Major Contributors to This Report
                                                                                                  35


APPENDIX. MANAGEMENT COMMENTS


                     Federal Aviation
                     Administration

Memorandum
Date:           September 15, 2006

To:             Assistant Inspector General for Financial and Information Technology Audits
From:           FAA Assistant Administrator for Financial Services/Chief Financial Officer

Prepared by: Anthony Williams, x79000
Subject:      OIG Draft Report: Audit of the Federal Aviation Administration’s RESULTS
National Contracting Service


In the subject draft report dated August 7, 2006, the Federal Aviation Administration (FAA) was
requested to provide written comments on that report.

As an initial observation, in March 2006 FAA dissolved both of the Results Qualified Vendors
Lists, and FAA's liabilities under the contracts awarded under Results is limited. In addition, FAA
made a number of changes over the life of the Results program that we believe would have further
reduced the possibility of overpayments.
Some of those changes made, prior to or during the OIG audit included:

      •
     Additional staffing was assigned to the program to -ensure the effective management of
     assigned workload and compliance with AMS and other management policies.
   • A lead contracting officer was established to monitor actions of lower-level contracting
     officers.
   • Required coordination with the Mike Monroney Aeronautical Center Counsel was
     mandated as required by the AMS when it was discovered such reviews were not
     accomplished by the original contracting officer on earlier contracts.
   • Quality of contracting actions improved when financial and legal controls were put in place.
     Contract services were limited to the scope defined in specific statements of work, labor
     categories and qualifications were defined and specified in contracts, and price verifications
     were performed and analyses documented in award decision documents.
   • Basic ordering agreement (BOA) orders were discontinued and stand-alone
     solicitations/contracts used.
   • Competitive procurements were strongly encouraged, and the trend toward competition for
     Results contracts improved steadily from FY02 (37% of contracts) to FY06 (100% of contracts
     through February 2006).
   • Innovative electronic tools and templates were developed to assist requisitioners in
     developing procurement documentation, to ensure severability and traceability of funding
Appendix. Management Comments
                                                                                                  36


        transactions in real-time account summaries, and to accomplish electronic submission
        and review of vendor invoices which ensured Prompt Payment Act requirements were met.

FAA concurs with most of your recommendations concerning using the most appropriate and efficient
means to replace the Results contracts, requiring approval before any new FAA-specific multiple-award
procurement programs are initiated, and developing additional guidance, oversight mechanisms and
periodic reviews, but disagrees with some of the specific elements of these recommendations.
Specifically:

OIG Recommendation 1: Ensure that existing multiple-award programs established by either FAA or
other Federal agencies are used to acquire support services discontinued under the Results program and
that the Acquisition Executive's written approval is obtained for any standalone contract awards. Report
to the Administrator on the status of replacement contracts in six months.

FAA Response: FAA partially concurs with this recommendation. Each reprocurement of a Results
contract should be performed with proper acquisition planning in accordance with FAA's Acquisition
Management System. The procurement strategy and contract type should be established based on the
requirement to be reprocured. To predetermine the contract vehicle to be used without appropriate
planning could lead to poorly conceived acquisitions. As part of this planning, other multiple-award
programs, such as GSA, BITS, or MASS will be considered, and used when they represent FAA's best
interest for each individual contract requirement. For example, FAA has often found that it can improve
upon the GSA schedule prices when it uses the schedule contracts as a starting point for a FAA
competition.

Some replacement contracts have been awarded and with positive results. For example, the
NEXGEN support services (renamed as NGATS) contract was recompeted in FY 2006 and
resulted in approximately 45% savings over a 5 year period, shown as below:

                               Potential Value
      NEXGEN* -
      Original Results
      Competition              $42M

      NGATS* -
      Recompetition            $22M

        *Next Generation Air Transportation System (NGATS)

We will provide the proposed procurement strategy for any remaining replacement contracts to FAA's
Acquisition Executive by September 30, for his review and approval. Also, any replacement contract,
or interim contract until a replacement can be awarded, for support services on a single source basis
and with an estimated value of $1 million or more must be reviewed and approved by the Deputy
Administrator; proposed procurements for information technology valued over $250,000 must be
reviewed and approved by FAA's Chief Information Officer, and proposed procurements with an
estimated value of $10 million or more must be reviewed and approved by the Chief Financial
Officer.



Appendix. Management Comments
                                                                                                  37


A status report will be provided to the Administrator starting February 5, 2007, until all
replacement contracts are awarded.

Recommendation 2: Provide sufficient justification to the Joint Resources Committee - FAA's
Investment Review Board - for approval before establishing any new FAA-specific, multipleaward
procurement programs.

FAA Response: FAA partially concurs with this recommendation. FAA concurs that for mission
needs of sufficient size, complexity, or broad applicability across FAA's lines of business to require
JRC approval, and part of the solution is to establish a new FAA-specific, multiple award procurement
program, the JRC will review and determine whether to approve that solution. The estimated value of
Results and its use across FAA's lines of business, for example, would be the type of mission need
requiring JRC approval. For mission needs of smaller size or complexity, or for qualified vendors lists
intended to be used across the agency, the FAA's Acquisition Executive will review and determine
whether a new FAA-specific, multiple award procurement program should be used. FAA will also
require sufficient justification be provided to FAA's Acquisition Executive for his approval prior to
establishing any new FAA-specific, multiple award procurement programs. The Chief of the
Contracting Office will review and approve any proposed small, limited in scope procurement
programs involving multiple blanket purchase agreements. FAA will amend its Acquisition
Management System guidance by January 31,2007 to include these changes.

Recommendation 3: Develop guidance describing how information concerning former FAA
employees working for contractors should be used when evaluating contract proposals.

FAA response: Concur. FAA acquisition personnel have already been trained in how to use
information concerning former FAA employees, but we will formally incorporate that guidance into
FAA's Acquisition Management System by January 31, 2007.

Recommendation 4: Develop oversight mechanisms to ensure that AMS requirements are consistently
implemented by all FAA procurement offices, and that adequate progress is made in implementing the
instructions in the Administrator's August 11, 2005, memorandum.

FAA Response: FAA concurs. Currently such oversight mechanisms are in place for FAA's regions
and centers, as well as its headquarters office, but there is some variation between the mechanisms
used.

The Assistant Administrator for Regions and Center Operations (ARC-I) instituted a formal
Procurement Evaluation Program (PEP) to conduct triennial reviews of the regions and Aeronautical
Center post-award contracting beginning in May 2006. This is a thorough review of the entire contract
file to ensure compliance with the policies and guidelines in the Acquisition Management System
(AMS). The Aeronautical Center has also established a full-time procurement analyst position to
conduct internal quality reviews of pre-solicitation, pre-award, and post-award contract documents for
compliance with AMS policies and guidelines, in addition to the legal and financial reviews which have
always been in place.




Appendix. Management Comments
                                                                                                  38

In FY05, the Office of Regions and Center Operations (ARC) developed and implemented a contract
universal file checklist which assists in AMS compliance during the pre-award, award and post award
phases of contract administration. Also in FY05, all regional and center contracting officers
completed a requisite 80 hours of refresher training.

In FY06, ARC developed and implemented enhanced guidance on the development of Independent
Government Cost Estimates as an ARC business plan target and best practice. The development and
implementation of a contracting officer's representative (COR) guidebook was completed as another
ARC business plan initiative. AMS has been updated to include both of these best practices.

On April 17 , 2006, ARC-l issued policies and procedures (to regional and center contracting offices)
outlining required contract administration actions resolving potential deficiencies in our contract
management practices. The ARC Procurement Evaluation Program will test compliance of these
policies and procedures.

In addition, the Office of Acquisition Policy and Contracting developed a support services review
checklist for Contracting Officer's use. Recently, the Office of Acquisition Policy and Contracting
established a contract oversight function for Headquarters, to perform tasks such as tracking DCAA
audits and disposition of audit findings, reviewing single source support services justifications (from
throughout the agency), managing FAA's Quality Review Board, and conducting reviews of contractor
personnel qualifications.

FAA will develop a nationwide, uniform mechanism for such oversight under FAA's Acquisition
Executive and incorporate this procedure into FAA's Acquisition Management System by January
31, 2007.

Recommendation 5: Conduct periodic reviews of contracting activities at all FAA procurement
offices.

FAA Response: Concur. As with the response to the above recommendation, FAA currently has
programs for periodic reviews of contracting activities at all FAA procurement offices, but there is some
variation in how these reviews are conducted, by whom they are conducted and how often they are
conducted. FAA will develop a uniform program for periodic reviews at all FAA procurement offices
and incorporate this program into FAA's Acquisition Management System by December 31, 2006.
FAA's Acquisition Executive will have the oversight responsibility to ensure that these reviews are
properly conducted, and to direct any corrective actions that might be needed.

Recommendation 6: Direct FAA's Chief Financial Officer to revise the procedures for reviewing and
approving contracts valued at $10 million and above to ensure that the quality of financial work
performed by procurement and contracting staff is assessed, price analysis is properly conducted, and
justification for not obtaining a pre-award audit is adequately documented.

FAA Response: FAA partially concurs. FAA's Chief Financial Officer has revised his procedures for
reviewing and approving proposed procurements valued at $10 million and above




Appendix. Management Comments
                                                                                           39


to ensure that the proposed investment of FAA's resources is appropriate and that the
acquisition program has adequate financial controls. In additional the Chief Financial Officer will
conduct periodic reviews to determine whether the financial controls used were in fact adequate.
FAA also concurs that the quality of the financial work performed by contracting staff should be
assessed, including assuring that price analysis is properly conducted and justification for not
obtaining a pre-award audit is adequately documented. FAA disagrees, however, that this work
should be performed by the Chief Financial Officer. FAA's Acquisition Executive will include as
part of the oversight and periodic reviews described above, and supported by the Chief Financial
Officer's staff, reviews of the quality of the financial work performed by contracting staff.

At the time of your audit, the CFO had only reviewed three business cases. Since that time, the
CFO has received 48 requests for approval and revised the policy resulting in much more in depth
assessments focusing on the quality of the business case, statement of work, and independent
Government cost estimates. Specifically:

    The business case is evaluated to determine:

    •   If the contract type is suited for the proposed work effort,
    •   What benefits the FAA could obtain by the procurement of the proposed service or asset,
    •   What alternatives were considered?
    •   Whether contracts exists that could provide the service, and
    •   What type of competition is planned?

    The statement of work is being evaluated for:
    • Well-defined deliverables
    • Reasonable milestone dates,
    • Acceptance.criteria for deliverables. and
    • What cost and performance monitoring procedures are planned?

    The independent government cost estimates are examined to verify:
    • That they are dated and prepared by government employees,
    • That a narrative summarizes the assumptions and methodology used in preparing the
       IGCE,
    • That the estimates are based on reasonable assumptions and supportable evidence, and
    • That rate comparisons are performed when appropriate.




Appendix. Management Comments
